CASE NO. 20-7228

IN THE UNITED STATES SUPREME COURT

LEROY POOLER,
Petitioner,
vs.
STATE OF FLORIDA,

Respondent.

 

CERTIFICATE OF SERVICE
I, Carolyn Snurkowski, a member of the Bar of this Court, hereby certifies that
on April 14, 2021, a copy of the Brief for Respondent in Opposition in the above-
entitled case was furnished electronically to Todd G. Scher, 1722 Sheridan Street,
#346, Hollywood, FL 33020, counsel for Petitioner herein. I further certify that all

parties required to be served have been served.

  

CAROLYN SNURKOWSKI
Associate Deputy Attorney General

OFFICE OF THE ATTORNEY GENERAL
PL-01, The Capitol

Tallahassee, FL 32399

Telephone: (850) 414-8300

Primary Email: CapApp@myfloridalegal.com
Email: Carolyn.Snurkowski@myfloridalegal.com
COUNSEL FOR RESPONDENT

18
